                                   :
                                       --   'P
                                                !
                                   <        ,
                                                    ..ATIONAL SCIENCE FOUNDAi: ~h
                                                       WASHINGTON, D.C. 20550




   Office of
Ins~ectorGeneral



 CLOSING
      -  MEMORANDUM
          - -
       .. .. ... .           ...   .
                                   -




           DATE: May 19, 1990
                                                                \
     SUBJECT: OIG 90-3124                               (~90-16)
                     TO: File
            FROM: Counsel to the Inspector General.                                           ,
                                                                                    %-   L,   '--   \-



 The complainant has requested that his proposal jacket be amended
 in accordance with the Privacy Act, and, assuming the- jacket is
 amended, the complainant has also requested that his grant from
 NSF should be reinstated.
 We have referred the request under the Privacy Act to the NSF
 Privacy Act Officer and the Office of General Counsel and have
 advised the complainant of this referral.
 This matter is accordingly considered closed.

 Concur :

 >,-6
(_                   I
                         -
                     *d.-/I.
                         /



 Assistant Inspector General for Oversight




  cc: Inspector General
